Supreme Court, U.S,
FILED

8443

No.

JUN 1 0 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STAKES

JACOBIEA. GREEN -* PETITIONER
vs.

STATE OF LOUISIANA - RESPONDENT(S)
ON PEimON FOR A WRIT OF CERTIORARI TO

THE SUPREME COURT OF THE STATE OP LOUISIANA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR CERTIORARI

JACOBIE A. GREEN #716648
CAMP C BEAR 2
LOUISIANA STATE PRISON
ANGOLA, LOUISIANA 70712

JYcparcdBy;

CAMP C - UTIGATIOH TEAM

Y .Ac4“.
k

"-4=r

ER. ERIC U HEMET, PHJD., TH.D., DIVJD., C.ED.D.
mm>5® CAMP C WOLF—2
CERTIFIED PARALEGAL/ CfiTEMDER COUH3ELIII

GINAL

QUESTIONS PRESENTED
1. Did the Louisiana Supreme Court error in denying review after a. State-crested impediment
occurred?
2. Whether ihe trial court erred in admittmg defendants statement at trial?
3. Whether the trial court erred in {buying the Motion to Quash the superseding short
form iiKlictoent?
4. Whether the trial court erred in admitting speculative phot.m2
5. Whether die trial court erred m including the Staf.eS requested jury charge?

1

LIST OF PARTIES

[ 1

All parties appear in the caption of the case on the sorer page.

M

All parties «So act appear in the caption of the case on the cover jjage. A list of all pasties to the
proceeding m the court whose judgment i s the subject of this petition is as follow®:

Jacohie Green - Petitioner
Slate of Louisiana - Respondent
Paul B. Coitnick, District Attorney for the Parish ofJefferson

3

TABLE- OF CONTENTS
QUESHON(S) PRESENTED..........

2

LIST OF PARTIES............................

3

TABLE OF AUTHORITIES CITED.

5

PETITION FOR WRIT OF CERTIORARI,,..,.

................................. ...........

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED............ .

........ ....6
.... ........8

STATEMENT OF THE CASE

9

STATEMENT OF THE FACTS.... .... ......................

.9

REASONS FOR GRANTING THE PETITION,.,..,,,.

21

LAW AND ARGUMENT.

22

1. The trial court erred In admitting clMendanfs statement at trial-................

.......... 22

2. Hie trial court erred in denying Hie Motion to Quash the superseding short-forai incficfmesit.....24
3. The trial court erred In admitting speculative ph<£os_.....................

26

4. The trial court erred in including the date's requested jury charge.

29

CONCLUSION............................................

..... .

PROOF OF SERVICE____ ___ _____________________ .__________

INDEX TO APPENDICES
APPENDIX A

Direct. Appeal Brief to the Louisiana. Court ofAppeal, Fifth Cireu.it
Louisiana Court, ofAppeal, Fifth Circuit, gffiimed conviction and sentence

APPENDIX C

Writ of Certiorari Is the Louisiana Supreme Couit

APPENOlXD

Louisiana Supreme Court's raltiig

APPENDIX E

Misc. Filing to acquire legal documents

4

30
31

TABLE OF AUTHORITIES CITED
CASES
State v. Lee, 05-2098, p. 15 (La 2008L 976 So.2d 109, 122..
Mirand&v. Arizona, 384 U.S. 436,467 (1966).......................
Oregon v. Mathiason, 429 U.S. 492,495, (1997)....................
Howes v. Fields, 565 U.S. 499, 507-8 (2032).........................
State v. Benoit, 440 So.2d 219,131 (La 1983)......................
Ring v. Arizona, 536 U.S. 584 (2002)....................................
Appreadi v. New Jersey, 530 U.S. 466 (2000).,.......................
Jones v. united States, 526 U.S. 227 (1999)...........................
Campbell v. Louisiana, 523 U.S. 392,399 (1998)..................
Hurtado v. California, 110 U.S. 516 (1884)............................. .
Malloy v. Hogan, 378 U.S. 1 (1964).......................................
State v. Prieur, 277 So. 2d 126 (La 1973)...............................
State v. Lanieox, 39 So.3d 606 (La ,4pp. 2010).....................
State v. Broaden, 99-2124 (La 2/21/01), 780 So. 2d 349,362.
STATUTES AM) RULES
La. C.Cr.P. Art.. 703(D)....
La R.S. 14:451.................
La C.R Art, 401...............
La C.R Art, 40 L___ ___
La C.E. Art, 402

PAGE NUMBER
23
24
24

24
24

...........25
25
25

26
26
26
,27

29
30

22
22

26
27
28

5

IN THE

SUPREME COURT OF TOE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a wit of certiorari issue to review the judgment, below.

OPINIONS BELOW

[ j

For cases from federal courts:

The opinion of the United States court, of appeals appess at. Appendix
petition and is
[ ]
reported at
sc
[ 1 has been designated for publication tat is not yet. reported; or,
is unpublished
[ 1
The opinion of the Unitecl States district court appears si. Appendix
the petition and k
l ]
reported at
[ ]
has been designated for publication bit is not yet reported: or,
is unpublished
[ ]

m

.to the

to

roc cases from state courts:

The opinion of the Louisiana. Supreme Court, to review the merits appears at
Appends fTF to the petition and is
[X]
reported at. State v. Green. 312 So.3d 583 (La. 2021)c or,
[ 1 has been designated for publication tad is not yet reported; or,
[ I
is unpublished
The opinion of the Louisiana Court, of Appeals, Fifth Circuit, appears at. Appendix ?BS:
to the petition and is
[X]
repotted at State v. Green. 286 So.3d 1230 (La. Anp. 5& Clr. 12/26/19): or,
[ ]
has been designated for publication but is not yet. reported or.
C 1 is unpublished.

o

JURISDICTION

[ J

For cases from federal courts:
'im date on which the United States Court of Appeals deckted my case
was
[ ]

No petition for relieving was timely filed m my case.

[ J
A timely petition far rehesring was denied by the United States Court of
Appeals on the following date;_______
and a coot of
the order denying rehearing appears at Appendix

[ 3

An extension of time to file the petition tor a writ of certiorari was granted
(date) on
to and including_________
(date)
in Application No. A

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

m

Fee cases from state courts:
The date on which the highest, state court decided my case was March 9,2021
A copy of that decision appears atAppendix
A timely petition for rehearing was thereafter denied on the following
, and a. copy of the order denying . rehearing appears at Appendix_____ .

[ 1

[ 3

date:

An extension of time to file the petition for a. writ of certiorari was granted
to and including.
___ (date) on
__jfd;te) in
Application No._____ .

The jurisdiction of this Court is invoked under 28 (T.S.C. § 1257(a),

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment to the United States Constitution
Sixth Amendment to the United States Constitution
Fourteenth Amendment to the United States Constitution
Louisiana Coast Ait I § 15
Louisiana C.Cf.P. Art. 703(D)
Louisiana R.S. 14:451
Louisiana. C.E. An.. 40i
Louisiana C.E. Ait. 402
Louisiana CJE. Art.. 403

8

STATEMENT OF THE CASE
On September 14, 2015, a. grand jury returned indictments on Jacobis Green, dong with two
eociefenclwiis, Datisnya. Spctville and Johneil Walker, for two counts of second degree saunter and one
count of attempted second degree murder, Jacobie Green was tried first, mid the jury returned
unanimous verdicts on each charge, Mr, Green sought a New Trial, which was denied by the trial court,
on September 12, 2018. R. 1287. Mr. Green was subsequently sentenced to two consecutive life
sentences, both without the possibility of probation, parole, or suspension of sentence, asd a third
consecutive sentence of 50 yews without benefit, of probation, parole, or suspension ofsentence.

STATEMENT OF THE FACTS
The evidence portion of the trial began on August L 2018. R. 599. Hie State first called
Detective Christian Dabdoub of the Jefferson Parish Sheriffs Office's Persona! Violence Unit., R. dll.
He testified that on June 21, 2015, he was the first officer to respond to the scene of die shooting at
1617 Apache Drive, Apartment “H” in Harvey at 10:27 put. As fee approached the scene, he saw three
victims laying outside of the apartment: Blake Lamb, Trammell Marshall, who was covered in blood.
writhing on the ground, md Jchnell Ovide, who was -dead. 1. 616. Detective Dabdoub saw inside the
opened front door of apartment He had observed the chaos inside — the window had been busted out.
furniture moved, bullet casing were all over the floor end blood was everywhere. R. 616. He then
spoke to Blake Lamb, who was sitting up in the doorway, and who had been shot, in the factAhroat. It
617. Detective Dabdoub asked him who did this to him and Mr. Lamb.said *Coby ironi Betty street”
He then attended to Trammell Marshall, who was twenty paces away, K_ 619, and who had been shot
multiple times. Detective Dabdoub asked him who did this to him, and Mr. Marshal! said, “Coble from
the Marrero Projects.” R. 618. He said that a reference to the Marrero Projects is generally known as an
area that includes Betty Street. R. 618. He said that Mr. Lamb spoke at a whisper and that he had to
9

lean dose to hear him. R. 619. tie testified that he believed the shooting took place indoors and that tile
gunfire would have interfered with their ability to hem'. R. 620.
Deputy Tim M assenting arrived soon after. R. 620. By the time crime scene came and
documented the scene, Mr. Lamb and Mr. Marshall hail been takes to University Hospital. R, 621.
Detective Dabdoub learned that Reginald Henry bail escaped oof of the broken window and hid in a
vehicle across the street. R. 624-25. He testified that. Mr. Henry was shaking when he spoke with him in
the ambulance that had been sent for Jolmell Gvide. R. 629. Mr. Henry was being checked by EMS for
cuts to life am from the glass, and said the attack was carried out by three people: Jaeobie -Green,
“Shadow". and a third suspect who he did not know R_ 630. He gave physical description of all three.
Id Detective Dabdoub knew someone named “Shadow" from when he worked in Jefferson Parish
Correctional Center. Id Mr. Henry directed him to the 1900 block of Betty Street as being a. possible
location for the suspect. Id
On cress. Detective Dabdoub said he noticed that Mr. Lamb was disorientated and his speech
was shirred. R. 641. He was trying to communicate a few other things but he couldn't underrtand what,
was said Id He did not. learn of any bad blood between Jaeobie Green or Reginald Henry or Black
Lamb. R_ £48.
The Sate next, called Deputy Kenneth Bonura, of the Jefferson Parish Sheriffs Office, JL 656. .
Deputy Maefauca pointed out the firearm beside Johnell Ovide's body and Deputy Bonura. secured .it.. R:
657. He did net. remember the make and model of the firearm bat remembered thst it had -a fully loaded
r

magazine of % rounds but no rounds in file chamber. R. 659.
The State next called Reginald Henry, aka “Kunia”, to the stand R. 669, R. 671. At the time of
the shooting, he was working as a club promoter. R. 670. He had two prior convictions for DWI and
reckless operation. Id Mr. Henry lived at apartment “W at 1617 Apache on June 21, 2015. He was
inside his apartment with Blake and Trammell and Jolmell Gvide, and they were getting ready lo go to
10

the party. R. 679. Mr. Henry was in’his room choosing what clothes to west;, and he came out once he
heard a knock at. the door. R. 680. He said Trammell answered the floor and then went to lay on the
sofa. R. 681. Blake was sitting and Trammel! was also laying down. R. 682. He said they weren't
smoking marijuana that day. Shadow; Jacobie said Dartanya were outside. R. 683. Mr. Henry knew
Shadow from the area, and he played basketball with Jacobie in high school. R 683. He knew
Dartanya, who was called “Lo”, lived next door to Jacobie. R. 683. lie mid they asked where the patty
was si. Id , they came in said Jacobie stood by the side of the door. R. 686. Blake Lamb had a gun
which lie had pat down on the stool. E. 687. Dartanya readied for that gun as Mr. Henry w on his
way to his bedroom. R. 688. Blake hied to intervene with Dartanya grabbing life -gun, indicating that
there was a round in the chamber: “Nah, they got one in the head.”1 R. 688. Dartanya pointed the gun
toward Ruga (Johnell Ovide) and stmt once, then pointed it toward Blake, and'shot him. iL 689. Mr.
Henry, who was on his way to his bedroom, continued though his bedroom, swung around a pole
which was in life bedroom, R 696, and went straight through the window to escape. IL 689. He wasn't
hurt except for a snail cut on his arm. IL 696. As lie escaped, he heard more shots and sounds of
someone being shot. R 694. He did not known how many shots he heard. "IL 695. “If sounded like
warfare.” R. 697. He asked a neighbor to call the police, and lie spoke to the police but lie was not able
to speak very much, he remembers saying, “They hit, They hit” IL 698-99. He said he was shocked
because he didn't know they had a problem. K_ 699. He was told to go sit in the ambulance. SL 700. tie
didn't remember much after that until they put him in the car to go to the Bureau. R. 701. He did not
remember saying that he had seen Jacobie Green or Johnell Walker shooting a gun that day. R. 701. He
did not remember anything until he go to the Bureau. Id itie last thing lie remembers is seeing
Trammell in the back of the ambulance, thrashing so much that it was shaking the ambulance. Id He
did remember seeing Shadow with a gun between Ms legs. R 701. He said he observed Jacobie Green
with guns before, and noted that they were all from the Marrero projects so they all had protection. R.
11

702. He did not recall telling an officer to he sawDartaaya shoot Blake in the face - lie only saw that
was light over him; and saw him shoot him on the light side of his body. R. 703-704. He told police
where the three men lived. R. 707. Mr. Henry testified before the grand juty regarding the indictment of
Jaeohie Green, ft. 708. Mr. Henry identified Mr. Green in the courtroom as the person in die living
room that night who stood by the door. R. 709.
un cress, Mr. Hen.™ said, he did net remember shaking to a. deputy or- detective on the scene.
he only remembered being in the ambulance and that maybe someone had come to check on him: R.
712. He remembered talking to a man and a woman at. the Bureau. R_. 714. He said they had been
smoking marijuana after Mr. Green and the others entered the apartment, R. 715, They were smoking
while Mr. Henry was walking back and forth for about 13 minutes before the shooting started R, 717.
He said he knew Mr. Green from school. R. 718. He knew Johneli Walker from the neighborhood,
though before this he only knew his as Johneil R. 7191 He told the grand jury to he did not see Jaeohie Green with a gam, but to he generally thought they all had guns for protection. R. 721. He
knew johneil Ovide curried a gun though he did not see it to day. R, 723. He remembered identifying
a. photo lineup of Dartanya as the one who shot Johneil mid Blake. R. 731, 733. He said he had seen
Jaeohie Green with guns many times. R_ 736.
The State next called Detective Jean Lincoln, of the homicide section of the Jefferson Parish
Sheriffs- Office. R. -742. She interviewed Mr. Henry- on the night of the murders, wherein Mr. Henry
identified- Jaeohie. Green from a line up as one of the people' who was there. R. 746, He gave her
addresses for the three people. R. 748. He identified 1909 Betty Street, as Jaeohie Green's residence,
and next door was the third person's address, 1911. He said Shadow - Johneil Walker - lives! st 1477
Lincoln Avenue. R. 749. Detective Lincoln used police database searches to connect individuals which
met. the descriptions given by Mr. Henry, and identified Dartanya Spotville as the third person. R. 752.
Detective Lincoln got. a search warrant for Mr. Spotviile's home aecl an arrest warrant for him, R, 755,
12

757. No evidence was recovered from flial search.
She said that Denise Boras, who lived nest doer at 1909 Betty Street, gave consent for police to
search the residence. ft. 758. itrey identified Mr. Green's roan in the home and noted targets on the
wall, one with a. number of holes in if R, 760. Police recovered aGJoek ,40 caliber magazine and a box
of Blazer .40 caliber ammunition. R. 761. They also collected a. box for a Gloek Model .22 handgun.
R. 76.1. Trie box was empty, hut inside contained a. receipt, with & customer name I Green dated June
15,2015. R. 763-764. She noted that ,40 caliber casings were located at the scene of the crime, JL 766.
Detective ldneoln learned the day after the crime that the .40 caliber ballistic evidence collected
at the scene suggested that at. least two firearms were in these murdered R. 76$.. Mr, Greer went to
speak to police on the 23 of June, wanting to discuss that, his gun had been stolen on the 21st, R, 784.
Mr. Green first spoke with Detective Fancetta. R. 769. Detective Fancetta indicated to Defective
Lincoln that he suspected Mr. Green's involvement in the crime. R. 770 Detective Lincoln said Mr.
Green first waited to talk about a. gun that was stolen from him, wherein he said he was outside his
home several days prior, where be had his weapon in his lap, R. 771, A stranger walked up and asked to
see it, then pointed it at him and ran away with it R. 771. She said Mr Green said he was somewhere

-

else that evening, and provided a name for an alibi. R. 773. After they had spoken for about 20 minutes,
she began to suspect. Mr. Green and moved him into an interview-room to record their interview, ft.
774. Detective Lincoln was pulled away for an emergency and Detective Fancetta. took over at that
point R. 781. Near the end of his interactions with police, (bring an- artesrview that lasted approximately 12 hours, Mr. Green admitted that he was present when the murder were committed, R,
790. The person who provided the alibi was charged and pleaded guilty for lying about the alibi. Id
The State called Deputy Joseph Gasqoet of the Jefferson Parish Sheriffs Office. R. 799. He
assisted in executing the search warrant at. 1911 Betty Street.. Id. He went through the consent to search
form with Ms. Boras, Mr. Green's m other. R. 801. Later that, clay, he returned to the area and spoke with
13

Clinton Freak, who said he had information for the police. R. 803. Mr. Frank was arrested then for
outstanding sttadim ents. Id.
The State next called Detective Gabriel Faucetta of the Jefferson Parish Sheriff’s Office. R. 806.
The State played the video of the interview for the jury. R. 817, States Exhibit 60. Because the
interview was so lengthy, the State played the snippets wherein Mr. Green spoke to interviewers. See
State’s Exhibit 60. In these interviews. Mi’. Green identified a picture of Trammell Marshall, Blake
Lamb, and Johuell Ovide. R. 819, 821. Mr. Green was not able to identity a lineup of Johaeli Walker.
R. 834.
The next day, August 2, 2018, the State continued • presenting its evidence with Defective
Faucetta In their interview, Mr. Green maintained that, he was with his cousin, Archie, during the time
of this crime. R. 861. Me gave Dartanys’s phone number from memory. R. 862. The number Jacobie
Green gave for Dartanya SpotviJie was correct, R, 922, The defective got Mr, Green aid Dartanya’s cell
phone records. R. 863. The defense did net ask any questions of Mr. Faucetta. R. 866.
The Stale next called Detective Donald ZanoteJli of the Jefferson Parish Sheriffs Office
homicide section, who testified about his role in the investigation of the homicides on June 21, 2015. R.
869. He demonstrated evidence mid photos front the scene to rite jury.

k_

870 et sect. Detective-

Zanoleili sad that casings on crime scenes get in all different locations, and they can get kicked around
a little bit by first responders. !_ 902. He .demonstrated photographic evidence of gunshots'to Johsell
Ovide’s body - a projectile emerging from the front of his tors© near his belly button. R. 906. Blake
Lamb was shot in the mouth damaging two teeth. R. 910. After, the crime scene was closed, police
were contacted by management of the apartment saying they had found anther tired casing while they
were cleaning up the apartment. R, 914-915. university Hospital removed projectile material from
Blake Lamb’s jaw. K. 919.
Detective Zanotelli showed photographic lineups to Blake Lamb, R, 923, Mr. Lamb identified
14

Dartanya Spotville, Jchneli Walker, and Jaeobie Green as having participated in the double homicide.
R. 925. Detective Zanotelli identified the points on the map where cells sites were activated by calls
from DaHanya Spotville and Jacobie Green's phone. K. 927. First he identified that the 911 call from
161? Apache Drive came in at. 10:26 pm. R. 931. At 10:26 pm, Mr. Spotville's cell phone
communicated with a tower nest to the homicide. R. 937. Mr. Green's cell phone connected with a
tower off of 90 - near Camp Street - at 10:37 pm. Mr. Spotville'g plume connected with a tower in die
Wast at 10:52 pm, and Mi'. Green's at 11:13 3x11. R. 93S. Mr. Green's cell phone connected at 11:28 and
11:29 pm. to a tower in the Little Woods sohdivfeioa. R_ 939. me detective had to leave for an
appointment, so there was a break in his testimony. R. 949.
In the interim, the State called Dana Trosclair, a forensic pathologist for the Jefferson Parish
Coroners Office. R. 949. She testified as an expert in forensic pathology. R. 950. Johnell Ovide had
three gunshot, wounds, R. 960, one which went through his torso through his intestines, which would
not alone have been Mai. R. 964. The second to the left chest, perforating the left lung and through the
heart, and the projectile was recovered from the right seventh rib, R, 964, was fatal.. R, 968. The third
wound is to his wrist, and hand. R. 968. She testified that she didn't know which way fee was facing, but
the shd'.came from behind him. K_ 970. He had marijuana mid caffeine in Iris Mood. R_ 971.
Trammell Marshall had five gunshot wounds. R. 976. Mr. Marshall received a left thoracotomy,
wherein liis chest .was cut open in an effort to save his life. R. 978. The first gunshot entered his left
upper chest and landed in the left fifth rib. R. 979. Tiiis injury was fetal. R. 980. Ms. Troxclar testified
that she didi't know what position he was in at the time of fee shooting, he “may have been bending
forward or backwards or laying on the ground/’ !_ 981. Hie second shot was superficial wound to the
chest. R. 982. Hie third wound was another superficial wound at the chest/abdomen. R. 983. The fourth
was to the. right posterior thigh, from which a projectile was recovered from the bone, and GabapeM in
or Meurontinin, Tramadol and nicotine in his urine. R. 988, She said his injuries two, three, and four
15

were from behind; the first one was from front to back: and the fifth one is unknown because she did
not known how his hands were positioned at. the time. R. 989. On cross, she explains that the
downward slant was a slight angle, from the third rib to the fifth rib, which is just a. couple of inches. R.
992,
The State next, called Linda Tran, a firearms examiner at the Jefferson Parish Crime Lab.. R,
994. Ms. Iran testified as an expert in the field of firearm ballistic identification and analysis. R. 1002.
The gun found next, to Johnell Qvide's body - a .280 semiautomatic pistol - was examined and there
was no evidence that, the gun was fired on the scene. R. 1013. Evidence of casings numbered 3,4, 5, 6,
8,10,11, and 23 are consistent with having been fired by the same Clock firearm. R, 1013, Casings 9,
22. and 48 were from a different gun, but all three from the same gun. R. 1017. The pm would be
consistent with a Smith & Wesson MIP Model. R. 1018.
Evidence of casing numbered 12, 24, and 38 which caused the fatal wound recovered from Mr/ ‘
Qvide's torso, was consistent with having been fired from a. Giock firearm. R. 1022. And number 49,
which was removed from Blake Lamb's jaw, is consistent with having been fired from a Clock firearm.
R. 1022. The projectile recovered from Tranunell Marshall's chest, number 46, was a DRT brand
projectile, which has a powder core metal base. R. 1023.-She said this one was damaged bufrshe could
see the cut rifling on the copper jacket and could measure that it was .40 caliber, but it. was too'
damaged for any further conclusions. However, cut rifling demonstrates that it was not a Giock. R.
1042. Therefore, 46A is not from Giock. Id, R, 1024.-Specimen 7 was a lead-like -projectile. Ri.-1023.
She said she had problems with testing the Walther.as it did not work properly. R. 1030. For
number 38, she could only say that it was from a Giock, but could not say which Giock. R. 1047.
Because projectiles arid casings do not come in contact with the same part of the weapon, they cannot.
link them to each ether without the firearm itself. R. 1042. And, she said, it bears ballistic similarities
with casing number 48, R. 1048-1049, which was consistent with being fired from a Smith & Wesson.
16

?

R. 1049. Tliis was the ballistic materia! taken from Trammell Marshall's chest. S_ 1051.
On redirect, she demonstrated the Polygonal rifling on 12, 24, 38, and 49 - and explained that
[tjhe: majority of these cornea from Qlocks. R. 1055. The same is tme of the elliptical firing pin - the
majority are from Clocks. Id The only manufacturer that produces both effects is the Clocks. R. 1056,
She noted defendant's cell phone connecting with a cell phone tower right nest to Lake Fonchartrain,
mid said a person can dispose of a gun in the lake. R. 1062.
Detective Daniel Lincoln did the consent to search form with Ms. Bums, Jaeobie Greens'
mother at 1909 Betty Street. R. 1084. He went over the form with her word-for-word. K. 1085. During
the search, mi Apple phone with a gold cover and a black Kyocera phone were seized. R. 1085-1086.
The State called Detective Solomon Burke of the Jefferson Parish Sheriffs Office digital crimes
unit. R. 1096. He testified as an expert in die field of digital forensics analysis. R. 1101. He examined
six devices in this case. R. 1103. He was able to extract information of an Apple iPhone. R. 1115. It
connected to an email with Jacobte Green's name and phone number 504-503-2534. R. 116. The
Instagram account name was for MCobie3n. R. 111?, there were web searches related to dock-products
in February 2015. R. 1117-1118. It shows communications between.this phone and Dartanya Spotville's
phone number 35 times. R. 1120. Three contacts were made between this phone and a contact named
Pumba, at 504-316-8634. E.. 1122. Defense made the same objections at 1124, to Exhibit 206.
, Continuing objection 207, photo that appears to be a dock firearm, and the forget in his room, tt 1127.
Exhibit 208 is a Glock. R. 1120. Exhibit 206 is at a public firing range. K 1131. Expert was unable to
extract information of three photographs taken from this phone, which included two photos of a Glock,
and Mr. Green with a Glock at a firing range with a target. B_ 1124. The expert was unable to extract
information from all the other phones. R. 1132.
The State next called Blake Lamb. R. 1139. His criminal background includes pleas to
misdemeanor possession of marijuana and misdemeanor theft and simple battery. R. 1140. He knew
17

Traimnell from school and called him Melt. R_ 1141. He also knew Johnell Ovide from school, who he
called Ruga id He kuew Reginald Hemy from parties. R 1143. He said they were at Reginald's house
on June 21.. 2015. Reginald's nickname was Pmnba Id He said they were smoking marijuana and
playing on their phones and Jacobie, Lo, and Shadow' knocked on the door. R 1144. Mr. Lamb knew
Jacobie from around in Marrero but he did not know Shadow1 before that, night R, 1145. He knew Lo
from before. Id Mr. Lamb said they came to smoke with them. Id He explained where everyone was
positioned in the crowded houses. Id Lo sat right next to Mr. Lamb. R. 1147. Jacobie was tixe door-. R.
1147. Lo went to a stool in the middle of the sofas. R. 1148. Reginald Henry was moving around, id
He knew Johnell Ovide had a gun with him that night. R. 1149. Mr. Lamb had a gun but he did not
know the specific make or model of his gun. R. 1150. Then Lo asked for Mr. Lamb's gun, which was
sitting on a chair or stool, and when Lo picked it up, Mr. Lamb said there was one in the chamber, and
to give it back. R. 1151. Lo pointed the gun Johnell Ovide, and shot him. R. 1151. Then he pointed the
gun at Mr. Lamb and hit him in his shoulder. R. 1152. He said. Then Lo stalled shooting, everybody
else stalled shooting,” saying he meant Cobie and Shadow: R. 1154. He said that Mr. Green appeared to
be in control of the gun and did not seem surprised. R. 1156. Before this happened, lie had seen
Shadow with a gun. But he did not see Jacobie with-a pin until ft happened,-and he got “a tittle glance
at it.”1 R. 1158.-He said it looked similar to State’s 208. R. 1159. When the shooting started, Trammell
Marshall dove into the kitchen and Reginald Henry escaped through .the window. R. 1159. .Cobie
opened the door and Lo went outside, and Johnell Ovide ran behind Lo, Then Mr. Walker and- Mr.
Green followed Trammell into the kitchen and he heard screaming and gunshots R. 1162. Be called out
stop to Cobie, who came over to him and told him to shut up, and shot him in the mouth. R. 1163. He
said then Mr. Green and Mr. Walker screamed and ran out R. 1163. He said Trammell got up from the
kitchen crying and walked out the front door and slid down, thinking he was about to die. E. il £4. He
remembered telling someone who came to the scene who he believed was involved in the shooting, and
18

he remembered being very hoi and needing water. R. 1164. Mr. Lamb was shot in his face, his hand, his
shoulder, his side, and his forearm. R. 1170. He identified Jaeobie Green as the person who was at the
house that night shooting. R_ 11/1.
In cross-examination, Mr. Lamb said that when Mr. Spotville handled his gun, he warned him
that there was one in the chamber and by the time he had told him that, the pm had fired,-and then
everybody Sated shooting. R. 1190. He said “when the gun went off, Mell jumped into the kitchen and
I was getting shot up at the time so I just slid dfthe couch and Ruga ran behind Lo. R. 1190. Mr. Lamb
had slid to the ground with the back of his head against the sofa when he says Mr. Green came over and
shot him in the face. R. 1194. He said .that he thought his grin was a forty millimeter. R. H96. He

-

reiterated that as soon as he told Lo there was one in the chamber, the gun went off. R. 1197. He also
says Lo deliberately shot the gun. R. 1197. Shadow' shot him on his left side. R. 119k. He still has a
bullet in bis left shoulder. R. 1199. When Lo started shooting, Mr. Green started shooting../#

-

The State next called Detective William Roniger. R. 1208 He explained that police examinedthe silver Pontiac G6 which was right in front of the apartment. R. 1210,-They observed a boHetstrike "'
on the windshield that is going away from the house, but determined that it had been there before this
incident. Ft. 1212. He get consent from Reginald Henry to search his apartment. R. 1213. Police-drove
him around and he pointed out there residences. R. 1215. He spoke to Archie Hulbert, who -initially'
corroborated that he was Mr. Green's alibi but then said he was being untruthful. R. 1219. Ultimately
cell phone records which were collected showed that- this information was false. Id State Exhibit 6G,the recorded interview, was played tor the jury. R. 1221. Detective Roniger during the course of his
interview with Jaeobie Green, obtained an arrest warrant for Mr. Green, who was arrested of die end of
the interview on two counts of first degree murder and one count of attempted first degree murder. R.
1235. Mr. Green was at the defective bureau for about 12 hours. S_ 1254.
The jury was charged R. 1277. The jury returned with verdicts of guilty of second degree
19

murder of Johneli Qvide, guilty of second degree murder of Trammel! Marshall, and guilty of
attempted second degree murder of Blake Lamb. R. 1280. The verdict was unanimous. R. 1282.
Sentencing took place on September 12, 2018. R. 1285. The court denied the defense Motion
For New Trial, and the defense objected R, 1287, The court sentenced Mr, (Jreen to two (2) hie
sentences for the second degree murder convictions and a sentence of fifty (50) years, without benefit
of parole, probation, or suspension of sentence, for the attempted second degree murder convictions.
Ail to be ran consecutive. R. 1290.

20

SEASONS FOR GRANTING THE PETITION
Petitioner first contends the Louisiana Supreme Court erred in denying the Writ of Certiorari as
being untimely. The Louisiana Supreme Court failed to review Petitioner writ although he present, the
fact there was a State-created impediment which should have allowed for equitable tolling in this case.
When Petitioner arrived at. Angola, security had inspected his property. Although there was
contraband found, Petitioner never received his legal documents which was not part, of the contraband
(See Appendix “E” for support of this State-created impediment). Furthermore, after the Louisiana
■Court, ofAppeals. Filth Circuit, denied Petitioner, appellate counsel did not notify Petitioner of this until
over 6 months later. This effectively denied the Petitioner an adequate review because his time for
filing was pad the time limit of 30 days.
Petitioner did not create any of the circumstances presented here. His paperwork was missing
due to the State’s penitentiary security, causing a hindrance on timely filing: further complicated by a.
State«appointed Louisiana Appellate Project, attorney who withheld his denial.
The circumstances of this issue must be charged to the State and Petitioner should receive
equitable tolling. As a result of applying equitable tolling, this Honorable Court should be inclined to
remand this matter to the Louisiana Supreme Court, for a just and proper review
In the alternative, Petitioner would ask this Honorable Court to de novo review the claims are
-argued before the Louisiana Supreme Court. These claims are presented in the Law and Argument that
follows.

21

LAW AND ARGUMENT
1,

The trio! coart erred in admitting defendant's dot mi em at trial
The defense sought to suppress Mr. Green's statements which he made over the course of

approximately 12 hours at the police bureau. Mr, Green came to sped? to police voluntarily, and over
the course of the day, the interview evolved into a custodial interrogation wherein Mr. Green ultimately
admitted that he had been present at the scene of the shooting. All of the motion to suppress, the
defense argued that, despite Mr, Green's waiver of his rights at the beginning of the -interview, the
statements were nevertheless not voluntarily given. See 72-77. The trial court made a finding-of fact
that the entire interview7 constituted a custodial interrogation, finding that "Even though [Mr. Green]
voluntarily went to the police bureau without being summoned there. I think once the interview-started.
once he was placed in that room, aid once he was sat at the table. I think from that point on basically
he was not free to. go... I don’t .think .he would h aye .been. allowed, .to. .leave within .moments after he got
there certainly after he started to provide -information which the police believed to be false.''- R. 465.
The court also found that the police interview did not rise to a level of being threatening or coercive. R.
466. Accordingly, die court denied Mr. Green's Motion to Suppress. Id But the interview did notbegin
as a custodial interrogation. And although Mr. Green signed a waiver of rights at the beginning of his
voluntarily statement, at some point the interview7 became coercive and interrogation, wherein Mr.
Green should have been re-informed of his rights.
Before inculpatory statements made by a defendant (bring a custodial interrogation may be
used in evidence against him, the State-must, prove beyond a reasonable doubt that the defendant, was
advised of his rights, that he freely and voluntarily waived them, and that the statement was made
freely and voluntarily and not under the influence of fear, intimidation, menaces, threats, inducement,
or promises. La. C.Cr.P. Ait 703(D); La R.S. 14:451; Stole >\ Lee, 05-2098, p. 15 (La 2008), 976
So. 2d 109,122.
22

Miranda adopted a “set of prophylactic measures’3 designed to offset the “inherently
compelling pressures” of custodial interrogation. Miranda v. Arizona, 384 U.S. 436. 467 (1966).
Miranda did not establish that police questioning of a suspect at the station house is always custodial.
See Oregon v, Mathiason, 429 U.S. 492, 495, (1997) (declining to find that Miranda warnings are
required “simply because the questioning takes place in the station house, or because the questioned
person is one whom the police suspect”); Howes % Fields, 565 U.S. 499,507-8 (2012).
Mr. Green was informed of his rights at. the" start of his voluntary interaction with detectives,
and he signed a Waiver of Rights pursuant to Miranda, which informed him not that he was under
arrest, but that he was-under investigation, R, 357, Detective Jean Lincoln testified that Mr, Green was
free to leave as this was a voluntary interaction, and she did not suggest in any way that, he was not free
to leave. R. 356. Soon thereafter. Detective Lincoln was called away on an emergency .and the
interview was taken over by other detectives, and what may have begun as a. voluntary interview soon
becam e a custodial interrogation for which Mr. Green should have been re-warned.

-

-

The validity of a. waiver of Miranda, rights is determined on the basis of the totality of the
circumstances. Stat.e v. Benoit, 440 So.2d 219, 131 (La, 1983), The circumstances which-indicate'a
custodial interrogation was not present, when Mr. Green signed the Waiver of Rights form, bu they soon
became apparent,-and Mr. Green should have been advised of his rights once die nature of the interview
changed Mr. Green did not make statements about being involved in this incident until about 9 hours
into the interview. R, 74. Around that, point. Detective Rodrique enters the interrogation room and the
interrogation becomes heated, and Mr. Grem\begins to make statements about pulling his gun out, R,
75.
As the trial court noted, and as the circumstances of the interrogation makes clear, Mr. Green
was not. free to leave. See also Defense Motion to Suppress. R. 74-77. However, the court's findings
that, this was a custodial interrogation from the very start is incorrect,, as Detective Jean Lincoln
23

specifically testified that, at that point Mr. Green was free to leave. K. 356-357. After that, the
interrogation was handled by other detectives, who should have re-Mirandized Mr. Green so that he
could be aware of his rights to remain silent and to an attorney. The Rights form was presented to him
at a moment in the interview wfeerein it was emphasized that he was free to leave. But once the
interview became an interrogation wherein he would not have been free to lews, he needed to be readvised of his rights to offset the inherently compelling pressure of custodial interrogation. See
Miranda, mpra,

.

Because the statements which were introduced at trial were not given pursuant to a valid waiver
of Mr. Green’s Miranda rights and were not freely and voluntarily made, the statements should have
been suppressed.
2.

The trial court erred in, denying the Motion to Quash the superseding short-form
indictment.
The defense filed Motion to Quash the Indictment as Constitutionally Deficient on January 16.

2018. R. 84. The superseding indictment, on October 8, 2015, alleges, in pertinent, part:
JACOBIEA. GREEN aka “Coble” ... did commit second degree murder of
Johnell Ovide aka “Ruga” and
JACOiSiiiA. GREEN akac<Cobie” ... did commit second degree murder of
Traiauiell Marshall.
See also La. R.S. 14:30.1

The continued constitutional validity of Louisiana's short-form indictments in capital cases has
been called into question by Ring v. Arizona, 536 U.S. 584 (2002); Apprend v. New Jersey, 530 U.S.
466 (2000); and Janes v. United States, 526 U.S. 227 (1999). Read collectively, these eases lead to the
conclusion that the indictment here is unconstitutional.
Under the Louisiana and Federal Constitution, no prosecution may be initiated for an offense
necessarily punishable by life imprisonment except by hue bill of indictment returned by a duly

24

constituted grand jury. La Const. Ait. I § 15; U.S. Const. Amend. V and XiV. Tilts constitutional
imperative provides fundamental protections to the accused, as the grand jury acts as an independent
and essential check on the in-osecutorial function.
The United States Supreme Court has recognized the broad powers extended to grand juries in
Louisiana:
The grand jury, like the petit jury, “acts as a vital check against, the wrongful exercise of
power by die State and its prosecutors” ...It controls not only die initial decision to
indict, but also significant decision such as how many counts to charge and whether to
charge a greater or lesser offense...
Campbgil v. Louisiana, 523 U.S. 392, 399 (1998).
The bare bones indictment here fails to identify whether the grand jury found that Jacobie
Green acted with specific intent to kill or inflict great bodily ham. the Supreme Court's 1884 tilling
that the right to grand jury presentment is not an incorporated right securing to state defendants is
constitutionally suspect. In Hurtado v. California, 110 U.S. 516 (1884), the Court concluded that the
Fifth Amendment's right to grand jiny indictment was not an element of die process because hie Fifth
Amendment spoke ofboth '“‘due process” and the right to indictment:
According to a recognized canon of interpretation, especially applicable to formal and
solemn instruments of constitutional law; we are forbidden to assume, without clear
reason to the contrary, that, any part, of this most, important, amendment, is superfluous,
The natural and obvious inference is, that in the sense of the Constitution, “due process
of law” was not meant or intended to include, ex vi termini, the institution and
pocedure of a grand jury in any ease. The conclusion is equally irresistible, what when
the sffine phrase was employed in fee Fourteenth Amendment to restrain fee action of ...
the States, it was used in the same sense and with no greater extent; and that if in the
adoption of feat amendment it had been part of its puipose to perpetuate the institution
of the grand jury in all fee States, it would have embodied, as did the Fifth Amendment,
express declarations to that effect.
Harrado, 110 U.S. at. 534-535. This interpretation cf the rights guaranteed by the due process clause
has been breaking down significantly since 1884. See, e.g,, Matter v, Hogan, 378 U.S. 1 (1964)
(holding that the privilege against self-incrimination is incorporated in the Fourteenth Amendment's

25

due process clause). It is only a. matter of time before the United States Supreme Court chooses to
address the question again. Mr. Green asserts that Due Process Clause of the Fourteenth Amendment
guarantees his right to have a grand jury consider and return an indictment concerning each and every
element of the crime for which he is charged, prosecuted, and convicted. He asserts accordingly that, the
indictment in this case was deficient and should have been quashed.
3.

The irid court erred'm admitting speculative photos.
On July 24, 20 IS, the defense filed a Motion in Limine to Prohibit}] Introduction-of Speculative

Photographs. R. 164. In it, the defense argued that die photos taken from Mr. Green's phone depicting
Mr. Green holding and firing a gun, and photos that show what purports to be narcotics in close
proximity to a gun, and photos showing Mr. Green holding a gun and pointing to a shooting range
target, should be excluded from introduction into evidence at trial. Id The defense argued that the
photos were irrelevant. Mr. Green was not charged with any narcotics violations and did not have any
felony convictions, and the State did not provide a notice pursuant to State >% Prion?, iff So. 2d 126
(La 1973), regarding the introduction of prior acts, and suggested that this evidence amounted to
-character evidence. R. 164-165. Moreover, Mr. Green had given a statement wherein he stated that he
owned two Gioek pistols, so in that way the evidence was comolstive. R. 164. Moreover, the defense
argued, if the evidence was relevant it was substantially outweighed by the risk -of’“unfair prejudice.
confusing the issues, misleading the jury, or by considerations of undue delay, or waste of time.” R
165, referencing La C.E. Art. 403. The defense argued that these photos were highly speculative, and
that they would be given significant weight by the jury. R. 165. At the heating on the matter, the
defense urged that the photos were cumulative and that there would be no reason to admit these photos
other than to prejudice the jury. R. 564-565.
The State responded that, the first photo was relevant because in Mr. Green's statement to police
he admitted that this photo depicted that he had the night of the shooting, R, 171, see R, 174, State
26

Exhibit. L Tlie State also signed that the surviving victim described the weapon used by Mr. Green, and
that, the photograph is needed to corroborate this account. Id The State argued, “it is probative and
relevant for purpose of the jury to understand the type of weapon used and will assist them in
evaluating the other ballistics evidence that will be submitted in this ease. As well it is probative to
corroborate the victim's credibility as to his ability to view and recall this weapon,”Id
As to-the second and third photographs, See R. 175-176, State Exhibits 2 and 3, the State said
they were relevant “as they depict one of the shooting range outlines that was recovered from a. search
of the defendant's home that were located in the defendant's bedroom.” “The evidence will be presented
at-trial- and is relevant and probative to show the defendant's knowledge and familiarity with-the
weapon in question and Ms skill in the use of the weapon. These are factors Mat are relevant to
establish whether the manner hi which he used that weapon establish specific intent to commit the
crimes tor which he is indicted” R. 172.
The trial court agreed with the State. Prior to tr ial on July 30, 2018, the court ruled:
All right. So the Court has, obviously, taken a look at the memos in support and
opposition to, as well as the photographs involved, I would tend to agree with the State
in this particular matter in that I think the photographs are probative of the weapon
involved in the shooting and Mr. Green's connection to that, weapon.
The State will have to prove intent as they're going to attempt to prove the
specific intent to kill. I think the familiarity with the use and the ability to use the gun
effectively goes into that issue as well so I think it is probative for those reasons.
And then clearly the photos depicting Mr. Green and the fad that, the items were
taken from Mr. Green’s room is probative of the fact Mat he is connected to the weapon
and/or to that ability to use the weapon effectively.
So for all those reasons, I think that die probative value outweighs any
prejudicial effect. I don't believe it's cumulative given the nature of the case so the
. Court's going to deny the motion. I will note defense counsel's objection for the record.
R. 567-568.
Evidence is relevant if it has any tendency to make the existence of any fad. that is of
consequence to the determination cf the action more probable or less probable than it would be without
the evidence. La. C.E. Art. 401. All relevant evidence is admissible, except as otherwise provided by

27

law, and irrelevant evidence is not admissible. La. C.E. Art. 402. However, relevant evidence may be
excluded if its jirobafive value is substantially outweighed by the danger of unfair prejudice, confusion
of the issues, or misleading die jury, or by considerations of undue delay, or waste of time. La. C.E. Art.
403. Statev. Lmdmx„ 39 So.3d 606 (La. App. 2010).
Here, the photos were indeed cumulative. The State already had ample evidence linking Mr.
Green with two Glock fire amis - including through a statement fay Mr. Green himself and Hie empty
Glock box and receipt found in his room. There was no more need for additional evidence oil this point.
The court's ruling that flie photos were probative of Mr. Green's- ability to use the weapon effectively is v_
not relevant because that was not af issue in this case. What was at issue was whether Mr Green acted
in self-defense or whether he formed specific intent to kill or commit great bodily harm. Instead, the
evidence served to bolster the State's only eyewitness who said that Mr. Green shot a. weapon- in a
deliberate manner. But that, eyewitness said he only caught aglimpse of Mr. Green's gun.
'Hie- admission of these photos was thus harmful to Mr. Green's defense because it. unnecessarily
placed an unrelated image of Mr. Green with a Glock firearm before the juryywhen the images depicted
totally separate events. The puipose for which they were admitted -to show-Mr. Green's facility with'
the weapon or the fact that it was with him on the night of the shooting - were unnecessary as those
purposes were not at issue in the case. Thus, because these photos were not probative of an issue iii the case, they used these, images of Mr. Green using a. gun in circumstances totally unrelated to the
circumstances at issue here, their prejudicial nature outweighed their probative value, and they should
have been excluded As explained above, their admission prejudiced Mr. Green because they unduly
bolstered a critical witness, whose credibility was central to the allegations against Mr. Green. In this
way, the error was prejudicial and not harmless.

28

'

4.

The tried court erred in including ike Side's requestedjury charge.
Tiie State requested special jury charges. R. 120-122, and the following was memporated into

the court's jury charges, over the defense's objection, R. 1265: “Deliberately pointing and firing a
deadly weapon at close range axe circumstances which will support a finding of specific intent to kill.”
State v. Broaden, 99-2124 (La. 2/21/01), 780 So.2d 349,362.
Die defense objected, noting that the charge was extraneous and already covered in the other'
charges. R. 1265. Indeed, the charges had already set forth that specific criminal intent “is that state of
mind which exists when the circumstances indicate that the offender actively desired the prescribed
criminal consequence to follow his act or failure to act.” R. 192. And: “Whether criminal intent is
present must be determined in light of ordinary experience.. Intent is a question of fact which may he
inferred from the circumstances. You may infer that the defendant intended the natural and probable
consequences of his acts.” R. 192. These instruction as to specific intent, were sufficient, and the added
comment about specific intent being supported by a finding of “deliberately pointing and firing a
deadly weapon at. close range” was extraneous and possibly confusing to the jury. 'Die State specifically
requested the instruction on the grounds that it. fell in line with Mr.-Lamb’s-account of the shooting. R.
1265. Arid the trial court agreed:
The state had requested to inclusion of deliberately pointing and firing a. deadly weapon
at close range are circumstances which will support, a finding of specific criminal intent
based upon the very' specific testimony by Mr. Lamb regarding Mr. Green’s actions of
pointing the gun against his face and pulling the trigger. I think that that definition or
that additional clarification of the definition of specific intent- would be appropriate in.
this particular case...
But the jury should have been left to evaluate Mr. Lamb's testimony without this extraneous instruction.
Had the jury determined Mr. Lamb’s account to be credible, it could have found specific intent under
the original specific intent charges. But including an instruction that, mirrors his account, seems to lend
credibility to Mr. Lamb's testimony instead of allowing the jury to evaluate the circumstances on their

29

own. Moreover, while this instruction was nonetheless included relative to all three charges. See R.
192. And finally, because the instruction was adopted as being so close to the specific testimony of Mr.
Lamb's “regarding Mr. Green's actions of pointing the gun against his face and pulling the trigger” R.
1265, the inclusion of this instruction conki have been seen by the juiy as the court's endorsement of
the State's allegations. Accordingly, this charge was irrelevant, extraneous and prejudicial to Mr, Green..

CONCLUSION

Hie petition for a writ of certiorari should be granted.

Respaotfiiliy submitted.

Jacobite Green
Elate; June

7

2021

Prepared By;

amp C - UTIGATIOW TEAM

'±J£T■=sSs£S®a=-

f

DR. ERIC M. DEMET, PH.D.,TH.D.,DIV.D., C.ED.D.
#380958 CAMP C WOLF-2 ' CERTIFIED PARALEGAL/ OFFENDER COUNSEL III

30

